OFFICE OF ATToRNEY GENEiL
STATE OF OKiAHOIvIA

September 22. 2021
Mr. Scot.t S. Harris
Clerk of the Court
The Supreme Court of the United States
One First Street, NE
Washington, D.C. 20513

Re: Ol?lahonla v. Shannon James Kepler, No. 21-252

Dear Mr. Harris,
I am counsel of record for petitioner in the above-captioned matter and write
to provide the Court with an update regarding the petition in this case. In the petition
for certiorari, petitioner referred the Court to its petition in Oklahoma v. Bosse, No.
21-186, for a fuller explanation of the reasons why review of the questions presented
is warranted. Petitioner requested that the Court grant the petition in this case or,
in the alternative, grant the petition in Bosse and hold the petition in this case
pending its decision in Bosse.
While the petition in Bosse was pending, the Oklahoma Court of Criminal
Appeals sea sponte vacated the judgment in that case, and the parties agreed to
dismiss the matter. On September 14, 2021, counsel for petitioner informed counsel
for respondent in this matter of the dismissal in Bosse and of petitioner’s intent to file
a petition in another case that would again fully set forth the reasons for granting
review on the questions that remain unresolved after the dismissal in Bosse.
Subsequently, petitioner filed a petition for certiorari in Oklahoma v. Castro-Huerta,
No. 2 1-429, which presents two of the same questions as Bosse and again fully sets
forth the arguments in favor of review.
Accordingly, when considering the petition in this matter, petitioner
respectfully requests that the Court to refer to petitioner’s arguments in Castro
Huerta in lieu of referring to the now-dismissed petition in Bosse. Petitioner requests
that the Court grant the petition in this case or, in the alternative, grant the petition
in Castro-Huerta and hold the petition in this case pending its decision in Castro
Huerta.

313 N.E. 21st STREET

•

OK1HoMA

Ciry, OK 73105

•

(405) 521-3921

recycled paper

•

fpx: (405) 521-6246

Respectfully,

Mithun Mansinghani
Solicitor General
OKLAHoMA OFFICE OF THE
ATTORNEY GENERAL

Counsel of Record for Petitioner

cc: Counsel of Record for Shannon James Kepler

Zachary Charles Schauf
Jenner & Block, LLP
1099 New York Ave., NW
Washington, DC 20001

